<html>
<title> - VOTING TECHNOLOGY HEARING</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                       VOTING TECHNOLOGY HEARING
=======================================================================

                                HEARING

                               BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 17, 2001

                               __________

      Printed for the use of the Committee on House Administration








                       U. S. GOVERNMENT PRINTING OFFICE
87-477                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                       BOB W. NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           STENY H. HOYER, Maryland, Ranking 
JOHN L. MICA, Florida                    Minority Member
JOHN LINDER, Georgia                 CHAKA FATTAH, Pennsylvania
JOHN T. DOOLITTLE, California        JIM DAVIS, Florida
THOMAS M. REYNOLDS, New York
                                 ------                                

                           Professional Staff

                     Paul Vinovich, Staff Director
                  Bill Cable, Minority Staff Director


                       VOTING TECHNOLOGY HEARING

                              ----------                              


                         THURSDAY, MAY 17, 2001

                          House of Representatives,
                          Committe on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:04 a.m., in room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee), presiding.
    Present: Representatives Ney, Ehlers, Linder, Hoyer, Fattah 
and Davis.
    Staff Present: Paul Vinovich, Counsel; Roman Buhler, 
Counsel; Jeff Janas, Professional Staff Member; Chet Kalis, 
Professional Staff Member; Luke Nichter, Staff Assistant; Sara 
Salupo, Staff Assistant; Keith Abouchar, Minority Professional 
Member; Cynthia Patton, Minority Professional Member; Matt 
Pincus, Minority Professional Member; Bob Bean, Minority Staff 
Director; and William Glunz, Research Assistant.
    The Chairman. The Committee on House Administration will 
come to order. We are holding our third hearing on election 
reform. Today we will be focusing on voting technology, and I 
do want to say it is a pleasure to be here today with Ranking 
Member Steny Hoyer, as well as all of the members of the 
committee, Mr. Linder of Georgia, to examine voting machine 
technology.
    Thank you to the vendors that are here today who have 
showcased your voting equipment and have traveled far distances 
to be here in Washington, DC to appear before us. I believe we 
owe it to ourselves to determine how technology can ensure an 
accurate and fair voting process. Also, the voting bells are 
ringing. I should mention, which means a 15-minute vote. So I 
am going to just have the rest of my opening statement for the 
record, see if there is any other opening statements and we 
will process--begin the hearing.
    Mr. Hoyer. Mr. Chairman, just thank you very much. Just 
briefly, this is the third hearing of our series regarding 
electoral reform. I want to congratulate, again, Chairman Ney 
for his leadership on this and for making sure that we move 
forward as promptly as possible on this critical issue.
    This is a nuts-and-bolts hearing that we are having today 
which is critically important, not because we are going to make 
the decision on this committee as to what nuts and bolts are 
used--we expect those decisions to be made at the local level--
but it will give us a better understanding of what confronts 
local and State election officials.
    I want to include, Mr. Chairman, the rest of my statement 
in the record. I look forward to hearing the information. I 
want to say as an aside that I had the opportunity to talk with 
Mr. Hart yesterday. I know they did election in Hyattsville in 
my district, just about 5, 6 miles from here. I know that went 
well, and I know--I had an opportunity to talk to most of you 
yesterday as well and looked at your technology and had the 
opportunity to use some of the technology.
    I was very impressed with all of it and very impressed with 
the concerns that are given to assuring those with 
disabilities, whether they be sight or mobility or hearing 
disabilities, have full access to the polling place and are 
able to privately cast their votes. That is obviously a 
critical component of any system I think, particularly as it 
relates to the efforts at the Federal level through the 
Disabilities Act signed by President Bush in 1990 to assure 
full inclusion of those with disabilities.
    So Mr. Chairman, I want to congratulate you and thank you 
and thank all of our witnesses for being here and for providing 
their technology for display and for education for members and 
staff. Thank you.

STATEMENTS OF TOM DAVIS, MANAGING MEMBER, VICE CHAIRMAN AND CO-
 FOUNDER, DIVERSIFIED DYNAMICS; WILLIAM F. WELSH II, CHAIRMAN, 
  ELECTION SYSTEMS AND SOFTWARE; BRIAN J. O'CONNOR, EXECUTIVE 
VICE PRESIDENT, GLOBAL ELECTION SYSTEMS, INCORPORATED; DAVID E. 
HART, CHAIRMAN AND FOUNDER, HART INTERCIVIC; RICHARD E. CARUSO, 
  FOUNDER/CHAIRMAN, SHOUP VOTING SOLUTIONS, INCORPORATED; AND 
MARLENE DUFFY YOUNG, REGIONAL MARKETING REPRESENTATIVE, UNILECT

    The Chairman. Thank you very much, and our witnesses today 
are Tom Davis, managing member, vice chairman and co-founder, 
Diversified Dynamics, Richmond, Virginia; William F. Welsh II, 
chairman of Election Systems and Software, from Omaha, 
Nebraska; Brian J. O'Connor, executive vice president, Global 
Election Systems, Incorporated, McKinney, Texas; David E. Hart, 
chairman and founder of Hart InterCivic, Austin, Texas; Dr. 
Richard E. Caruso, founder/chairman of Shoup Voting Solutions, 
Incorporated, Quakertown, Pennsylvania; and Marlene Duffy 
Young, regional marketing representative, UniLect, Dublin, 
California.
    Welcome and we will begin with Mr. Davis.

                     STATEMENT OF TOM DAVIS

    Mr. Davis. Thank you, Mr. Chairman. Mr. Chairman, members 
of the committee, as you have addressed the critically 
important issue of election reform, allow me to say thank you 
for the opportunity to present testimony for your 
consideration. I am grateful for this opportunity to offer my 
perspective and to respond to the question, can we act quickly 
and effectively to correct the systemic problems that are 
inherent in the vast majority of America's current voting 
system? Can we do it in a way that will allow the overwhelming 
majority of the citizens to be confident in these processes and 
satisfied that democracy works.
    The answer is yes, but it can only be accomplished with our 
help within the time frame that American citizens are 
demanding. The deeply ingrained crisis of confidence that 
Americans have in our current voting processes is well 
deserved. For too long, too little resources were allocated to 
replace the vase majority of America's unreliable voting 
systems, but very few citizens were aware of the tolerated 
margins of error that continue to exist in the majority of our 
polling places. Well, they know about it now.
    I especially want to commend the committee's ranking 
member, Congressman Steny Hoyer, for introducing the bipartisan 
Voting Improvement Act. Congressman Hoyer's bill acknowledges 
the critical importance of providing Federal financial 
assistance to States as they struggle with how to pay to fix a 
problem that we all know needs fixing.
    I also want to take this opportunity to congratulate 
committee member, John Linder of Georgia, for the efforts that 
his State is taking to improve the voting process. Under the 
leadership of Georgia Secretary of State, Kathy Cox, Georgia 
has overwhelmingly, with strong bipartisan support, passed 
Georgia Senate bill 213 and has begun the process of selecting 
and installing a uniform Statewide voting system prior to the 
presidential elections of 2004.
    This Congress can ensure that that goal is met in Georgia 
and in every other State that chooses to act in accordance with 
the wishes of the majority of the American people. Likewise, if 
this Congress refuses to respond to citizens' crisis of 
confidence, I believe that you will be inviting an avalanche of 
litigation, probably centered on the equal protection clause; 
and if by 2002 or 2004 we have done little or nothing to 
correct the current problems with America's voting systems, 
since they were revealed to all of us, I believe that the 
probable scenario could be far worse and much more expensive 
for out citizens to remedy and to endure than to begin to 
repair these problems now.
    We have the technology and the manufacturing capacity in 
the United States to solve this problem. We have available the 
IT and systems integrations technology. We have it today. What 
we need are partnerships. This industry, the largest company in 
this industry, has 400 members. What you need to concentrate on 
is not what it costs to buy a unit, but what it costs to make 
one. We have the technology available. There are ways to 
finance this system. There are people, Fortune 500 companies 
that will team and come together and help these companies in 
this industry get this job done for America.
    I think we ought to look at different ways of doing 
business there are many, many ways to approach this problem. 
Thank you very much, and I ask for the balance of my statement 
be put in the record.
    The Chairman. Without objection.
    And Mr. Welsh.

               STATEMENT OF WILLIAM F. WELSH III

    Mr. Welsh. Thank you, Mr. Chairman and members of the 
committee. I would like to thank you for giving us the 
opportunity to express our opinions and to seriously examine 
the issues that are underlying the whole election reform 
process, and what role the Federal Government should play in 
it.
    The fundamental truth in our industry is that funds for 
modern election technology have not had a high priority, even 
though at the State and at the local level, as well as the 
vendors within the industry, know how to fix these problems. 
The whole issue of spending priorities at local government, I 
can tell you unequivocally, that snowplows and road graders 
will win over election systems every time. And so the answer to 
our problem is money, not technology. We have the technology 
and it is in place.
    Despite the rhetoric that has gone on over the last 4 or 5 
months since November, there has been little done except for 
what was noted earlier in Georgia and in Florida that has 
resulted in definitive action on changing out some of these 
outmoded systems. The fact that we are talking about it has had 
a predictable result of slowing down the actual conversion 
process. There are many jurisdictions who would choose to move 
forward, but in the absence of knowledge of what may happen out 
of Congress relative to funding has prevented them from moving 
forward.
    The questions you ask, could we make a meaningful change 
between 2002 and 2004, I would tell you that time is our enemy 
as well as money. We are currently wasting a tremendous amount 
of time in dialogue and not enough time in actually 
implementing the solutions. If I had to give you a rough 
estimate today, the answer would be no to both questions. To 
change out all of those punch card systems as an example, which 
involves over 599 counties, over 55,000 precincts, and over 
40,000,000 registered voters is not something that can be just 
done overnight.
    If you just took a look at the average size of the industry 
sales for the last 4 or 5 years and divided it into that 
problem, you are talking about 6\1/2\-plus years to change out 
at average sales rates the punch card systems to optical scan, 
or if you were to change to DRE, you could be talking as long 
as 27 years.
    Now those are historical numbers. The industry can ramp up 
its manufacturing capacity. I don't believe that it is going to 
be machine limited. I think it will be, however, people-
resource limited, and each of us have full-time staffs that 
help jurisdictions make these changes.
    The real issue that we have in front of us today is the 
time to implement realistically so that you have quality 
elections for 2002 and quality elections for 2004 are limited. 
If you add on the time to negotiate contracts with each and 
every one of these jurisdictions to the actual implementation 
process, it is going to take a long time.
    You asked the question about costs. I think costs are 
coming down as we speak today. I would also make the statement 
that the current certification process works well but it needs 
to be expanded. We need to have more resources devoted to 
certifying equipment, and we need follow through to make 
certain that the equipment being shipped actually meets those 
certification requirements.
    I think that in terms of what the FEC is doing today in 
promulgating new standards would also help, and I understand 
that is going to be finished by the end of August this year. So 
the answer is money, not technology. We need time also.
    The Chairman. Thank you.
    Mr. O'Connor.

                 STATEMENT OF BRIAN J. O'CONNOR

    Mr. O'Connor. Mr. Chairman, members of the committee, 
esteemed colleagues, I would like to thank you for this time 
and the opportunity to address the committee on these several 
pertinent issues. It is difficult to address and clarify the 
issue in the short time allotted, so I will be brief and 
address all four of the specific issues.
    The Chairman. I am sorry to have to interrupt. We have got 
to cast a vote and we will be back right away. We want to hear 
your whole testimony, so if you could bear with us.
    Mr. O'Connor. Will I have two minutes and forty seconds 
now?
    The Chairman. We are going to reset your clock. This will 
work accurately.
    [Recess.]
    The Chairman. House administration committee will reconvene 
and we will begin again with Brian J. O'Connor. Thank you.
    Mr. O'Connor. Thank you, again. Ladies and gentlemen, I 
would like to take this time to thank you for the opportunity 
to address the committee on these several pertinent issues. It 
is difficult to address and clarify these issues in the short 
time allotted, so I will be brief and address all four of the 
published questions.
    From your perspective, what Federal action would facilitate 
technological improvements in the voting process? From our 
perspective the technology is here, approved and available 
immediately. The acceptance of this by the public and the 
election officials is behind the power curve. If we can 
transmit secure information in defense, intelligence, banking 
and national security, why is it so hard to accept the fact 
that votes can be secured as well? The government should 
provide funding not to purchase equipment but to support the 
infrastructure behind electronic voting. Once the 
infrastructure is in place, the voting equipment cost 
dramatically falls because the equipment becomes an appliance.
    The next questions is does the industry have the capacity. 
Yes, if we act now. We cannot wait till 2003 to complete the 
task in 1 year. A governmental plan would enable the industry 
to address the marketplace as a whole instead of a system-by-
system scenario that currently exists. For those vendors that 
have a modular designed hardware such as global scaling, your 
production runs for additional capacity is already designed in.
    Reducing the cost of voting equipment. Reduction of 
equipment costs comes when electronic voting is supported by an 
electronic infrastructure. Until then we are subject to 
relatively small individual orders of various equipment.
    What can be done to improve the voting certification 
process? As Mr. Welsh and Mr. Davis both said, the process we 
have today is sound, but the original premise of NASED was an 
outstanding premise of having a national ITA certify the 
election hardware and software and remove the certification 
burden from the States. In addition, this was to create a 
uniform standard by which vendors could develop and produce 
products that were not State or county specific. What we have 
today is not uniform. The ITA process is arduous, time 
consuming and expensive. We have one ITA for hardware and 
resident software and one ITA for software management systems. 
This is causing bottlenecks. My question always has been why do 
we utilize private companies for the ITA process when several 
major universities have expressed serious interest and have the 
resources to perform, such as George Mason University here in 
the D.C. area.
    Secondly, State acceptance of ITA certification standards 
is not uniform. Some States require ITA. Some State do not. 
Some acknowledge ITA certification as their own. Others require 
additional state certification on top of the ITA. We need a 
uniform standard with multiple ITAs which will give the public 
better, more secure and reduced costs.
    Thank you very much for your time.
    The Chairman. Thank you very much.
    Mr. Hart.

                   STATEMENT OF DAVID E. HART

    Mr. Hart. Thank you, Chairman Ney, members of the 
committee. I appreciate the opportunity to be here to testify 
before you today.
    Hart InterCivic has been in the election business since 
1912, and we serve about 5,000 election customers and do about 
2,500 elections per year in election services, and it is in 
that context I would like to comment on the four questions that 
you have specifically put to this panel.
    Your first question has to do with the industry having the 
capacity to replace voting equipment by the 2002, 2004 
elections. This is a frequently asked question within this 
industry, not only by this panel but by our customers, owing 
primarily to the fact that the existing suppliers in this 
industry are not large companies in general, and there is 
concerns about scale up and deployment and support.
    In that context, I would like to say that I also believe 
that what will happen will be gradual over time. Just because 
some counties had problems in Florida with the punch card 
doesn't mean that all of them are going to get rid of their 
punch card systems. We think this will be a more measured 
replacement process over time.
    However, we think that there are trends emerging in this 
industry to address the potential demand. These are new 
companies coming to the market, manufacturing integration 
partners, those that have entirely new solutions. We are seeing 
companies that have established manufacturing processes such as 
Dell, Compaq, IBM coming in the marketplace, integrators such 
as Accenture and Unisys are also expressing interest in coming 
into the marketplace, and we believe there will be capacity to 
meet accelerating demand in the future.
    But there are several variables that will affect our 
ability to do this as an industry, and certainly the 
certification process is a gating item. Integration with legacy 
systems, and of course, funding will be a gating item as well 
for our ability to meet the demand.
    You have asked about what improvements can be made to the 
certification process, and this is clearly a key. There are two 
issues. There are guidelines and then there is the capacity to 
certify systems in a timely manner. There are processes already 
existing within the FEC and the Election Commission to do this. 
It is a question of resources, the resources needed to be 
devoted to address what is now coming on the market today in 
new systems.
    You have asked about the ability for systems to be reduced. 
I can tell you in the short time that we have actually been 
doing the DRE systems, systems have dropped almost in half in 
terms of pricing today. As demand increases, there will be an 
increase in economies and in the supply chains, and we believe 
there will be an ever-decreasing price level for these systems 
as demand increases.
    Also I would also suggest that you talk about the total 
cost of ownership of systems, which includes employee drain for 
the elections administrators as well as all the administrative 
costs and ballot costs and so forth, not just focus on the one-
time equipment costs associated with it.
    Finally, you asked what could be done for the Federal 
action to facilitate technological improvements? Again, I would 
say there are many, many improvements made just since the 
presidential election in 2000. Accessibility technology is 
light-years ahead of where it was a year ago, and there is no 
reason that any polling place shouldn't be accessible today 
from an equipment standpoint.
    Audit trails, security, all those issue related to 
conducting an election have been vastly improved and can be 
improved in a very short period of time. Again, it comes back 
to our ability to present these to compare them to standards 
and bring them to market based on certification process.
    Thank you very much for your time.
    The Chairman. Thank you.
    Dr. Caruso.

                 STATEMENT OF RICHARD E. CARUSO

    Mr. Caruso. Mr. Chairman, I would like to ask that my 
statement be included as part of the record.
    The Chairman. Without objection.
    Mr. Caruso. Good morning. My name is Richard Caruso and I 
am the CEO of Shoup Voting Solutions in Quakertown, 
Pennsylvania. I would like to thank Chairman Ney, Ranking 
Member Hoyer, and the other members of the committee for the 
opportunity to appear here today.
    In the past century, more than 300 countries in 33 States 
have successfully used Shoup voting equipment. In order to 
preserve our democracy. Mr. Chairman, we must ensure that new 
voting systems accurately and fairly represent the will of the 
people. Conflicting voter registration roles, inadequate voter 
education, poor poll worker training, ill-conceived ballot 
designs, antiquated machinery and disparate voting methods all 
undermine citizen confidence in our election system.
    Makers of voting equipment including Shoup are currently 
finalizing new state of the art systems with technology that 
can help restore faith in our electoral process. Voting units 
are currently available for order that detect undervoting and 
overvoting, that allow for multiple language ballots, that are 
ADA-compliant and make it easier for sight and hearing impaired 
voters to cast ballots and provide quick accurate vote tallies.
    Assuming that State and local governments had sufficient 
resources to purchase them, voting systems like those I just 
described could be put in place nationally in short order. 
Resolve and resources, not technology, are the biggest barrier 
to election reform. However, Mr. Chairman, it may be difficult 
to significantly improve voter registration systems by the 2004 
election cycle.
    Voter registration systems must be able to prevent fraud 
and other abuses without being so intrusive that citizens are 
discouraged from voting. New voter registration systems involve 
significant database, development costs and must strike the 
right balance between preventing fraud and protecting voter 
privacy. This presents a substantial challenge to actually 
implementing improved systems.
    Mr. Chairman, the Federal Government is essential to 
assuring promising technologies play an important role in 
election reform. Election reform cannot happen without 
sustained congressional involvement. The key to Federal 
involvement is not more study of the issue, but more resources. 
Many State and local governments lack adequate resources to 
purchase election equipment and services that effectively 
protect an individual's right to vote.
    Congress should expedite Federal money to State and local 
governments to fund badly needed election reform. Congress 
should use Federal money to encourage development of uniform 
voting technology requirements. In addition to ensuring that 
all voting systems meet proper standards consistent with 21st 
century technology, uniform requirements will also reduce the 
overall cost of election reform. Congress should insist that 
voting systems meet minimum standards and practices, and Mr. 
Chairman, we submitted a list of those minimum standards and 
practices in our written testimony.
    Mr. Chairman, thank you for the opportunity to appear here 
today. I will be happy to answer any questions that you or the 
other members of the committee have for me.
    The Chairman. Thank you very much.
    Marlene Young.

                   STATEMENT OF MARLENE YOUNG

    Ms. Young. Thank you, Chairman Ney and members of the 
committee. I appreciate. I appreciate the opportunity to be 
here this morning.
    I am Marlene Duffy Young with UniLect Corporation. UniLect 
Corporation manufacturers the PATRIOT, a touch screen voting 
system, the Nation's first. We are dedicated exclusively to 
touch screen technology because we believe it is the superior 
technology for voting.
    My perspective as a vendor is a little bit different from 
the others here today, because for 15 of the last 20 years, I 
was a local elected official. I have been through six elections 
of my own, including one very close race that took 4 months and 
a court ordered hand recount to resolve. Mismarked paper 
ballots, undervotes and overvotes, unreadable by counting 
machines, were at the center of my dispute. The court-ordered 
hand count changed the outcome of that election and required a 
change of elected officials months into the term, a costly, 
difficult and nerve-wracking process for everyone.
    The controversy dominated our local press for months and 
kept county government in political turmoil during that period. 
It, in fact, resulted in a grand jury investigation that found 
no fraud, but concluded that the race was simply too close for 
the machines to accurately count because of thousands of 
mismarked ballots, ballots that were perfectly legal, but they 
were simply unreadable by the central count optical scan 
system. Thereafter our county did replace the central count 
scan system with a precinct count system.
    I share this to let you know that my insights and comments 
reflect my personal experience as a taxpayer and a voter, and a 
candidate as well, as my current interest in the technology of 
touch screen.
    My own controversy convinced me that there is no perfect 
election system, but a paperless voting system is far superior 
in reducing voter error and ensuring vote count accuracy. 
Furthermore touch screen systems offer much better opportunity 
to accommodate those with disabilities and handicaps. In fact, 
UniLect manufactures a system, we call it the ``freedom unit,'' 
which is available for the blind or visually impaired and 
allows those folks to vote totally independently.
    That is why I am now with UniLect and promote the PATRIOT, 
the Nation's most proven system that has been in use since 
1995.
    When you talk about the industry capacity to meet the need 
to change out the systems, certainly by 2002, replacement of 
all punch cards is tremendously ambitious. Personally, as a 
former local elected official, I really think that government 
constraints in terms of the budget making, the decision process 
and procurement requirements may be more limiting than the 
industry capacity to meet that need. In fact, local governments 
are in their budget process right now and they are going to 
have to make a decision very quickly within the next few months 
about what they are going to be able to do put a new system in 
place by 2002. Even by 2004 that is a very ambitious time 
frame.
    I certainly think that the industry can meet the demand 
that will be out here, but other than those States, such as 
Florida, which obviously has mandated change by 2002, 
personally, I am not convinced that there is a compelling need 
to change those out that quickly. A phased-in approach seems to 
make more sense, and in fact these systems, all the systems 
have some shortcomings, but in fact, most of them have worked 
well in most instances and can meet the need.
    What is compelling is evidenced at the Federal, State and 
local level of decision makers to reform the selection process 
at every level, including the voter data registration base, 
voter education and training, and, of course, technology 
improvements.
    Established technology companies like UniLect should be 
consulted and involved in the research and development of 
technology improvements, but we really want to make the point 
that technology improvements need to respond to rather than 
dictate the needs of voters and election administrators. Jack 
Gerbel, the President of our company who has been in this 
business for 37 years, would caution that there is no silver 
bullet or simple technology solution but that it really needs 
to be a comprehensive answer.
    In terms of the time frames, we certainly--and our system 
can be implemented rather quickly. We can do in concurrently. 
In fact, typically we can implement our system four months from 
order time to the actual election, but again, we would say that 
elections are a complex process impacted by the diversity of 
our people and human error, and while no technology can 
guarantee perfect elections every time, it is my opinion, base 
on my real-life election drama, that a paperless voting system 
is far superior to one requiring ballots because it eliminates 
the issue of voter intent.
    The Chairman. I hate to interrupt but we are running over 
the time.
    Ms. Young. Oh, I am very sorry. I was looking at the clock 
and read it wrong.
    The Chairman. That is okay. We could take the rest of your 
testimony for the record.
    Ms. Young. I would appreciate that. Thank you very much, 
members.
    The Chairman. I have a generic question I would like to 
ask, but also as part of this I would like to focus in with Mr. 
Davis and Mr. Welsh, just from listening to your testimony. The 
generic question is, assuming you receive purchase orders by 
the end of this year, that is, purchase orders that means we 
get the bill out, the money is out to the locals, you receive 
purchase orders by the end of the year, how many could you, or 
could you produce any in time for deployment for 2002 
elections?
    Now, anybody is free to answer that, but also with Mr. 
Davis and Mr. Welsh, I think the both of you, from what I have 
listened to testimony, have a disagreement about how long it 
will take to replace the systems, and I just wonder if you 
could explain the different points of view and how long it 
would take to get new systems in place, and anybody else would 
like to answer also. I was just curious about the two of you 
specifically.
    Mr. Welsh. Well, in my particular case, my point was we can 
manufacture the machines. I think the entire industry could 
manufacture the replacement technology relatively quickly. What 
I am concerned about is the actual implementation or 
installation of these new systems replacing the old. The 
combination of the election staff having to be trained, all new 
software systems, all new voting systems, training poll 
workers, educating voters, all those are critical. If we just 
throw technology at this without proper education and training, 
it is not going to work. It is not going to have the intended 
result, and so our point is that it is the time to install 
properly trained and educate everybody involved in the process 
that is going to be the limiting item. It is not going to be 
manufacturing capacity.
    The Chairman. Mr. Davis.
    Mr. Davis. Mr. Chairman, I think Mr. Welsh makes a good 
point. I read this morning some of his comments in The USA 
Today where he does have the largest company in the industry, 
which is about 400 people. That is not the size company that 
Diversified Dynamics wanted to partner with when we tried to 
consider what this responsibility might be. I think that the 
interest is, we went to very large companies. I did a thumbnail 
sketch after I read that article, and the three companies that 
I am teaming with just on the Georgia bid that is taking shape 
now have approximately 123,000 employees. They have IT 
capability, networking capability, infrastructure capability 
and certainly manufacturing capability. I am more interested in 
what the cost of the solution is.
    When we focus on the cost of a single machine, I think we 
are missing the point. The technology certainly exists, and the 
companies are out there with the capabilities that want to do 
business with us. That is what I have done that may be somewhat 
different than other people, and that is why I believe it can 
be done today. I have gone to companies that have historically 
taken the most complex problems, technology problems in the 
United States, and have solved those problems, and they have 
asked to partner with us as well. So that is our approach and 
that is probably a different approach.
    The Chairman. It is tough for us because we try to 
calculate it, as you can imagine, an average cost per machine, 
how many punch card ballots are out there. You try to figure up 
the money so you can get a bill in appropriation and get it out 
there so we try to get estimates.
    I am just curious about the generic question. Any of you, 
could you deploy by 2002?
    Mr. Hart. I would like to make a similar response that Mr. 
Davis did. We also have put together an alliance, as I spoke in 
my testimony, with larger companies that are in the integration 
business that can deploy and scale up very quickly across the 
country. Manufacturing, except for some long lead items that 
may be associated with some of these manufacturing units is not 
a problem. I do agree with Mr. Welsh that the actual 
integration, the training, is a huge item in this but there are 
organizations and businesses that can help scale up.
    The Chairman. Now, wouldn't this depend too on how many 
machines--let us say we pass the money down to the locals and 
it would depend on how many localities you went to and how many 
machines you got. The price would obviously vary whether you 
are selling 1,000 machines or you are selling 500 or 10,000, 
that price is going to vary, I assume of course, right? Could 
that be how your industry works?
    Mr. Hart. There is certainly economies of scale in 
manufacturing as there are in other industries.
    The Chairman. Well, let me ask this, which goes to the 
point, if you have to outsource--or would you have to 
outsource? Say you get large orders, would you have to 
outsource or you can handle it internally, and if you outsource 
that would obviously raise the price wouldn't it?
    Mr. Hart. No, sir, quite the contrary. We prefer to 
outsource. Our expertise is in elections and how elections 
operate, and we have preferred to outsource the manufacturing 
of our units to companies that contract manufacturing. These 
are companies that manufacture computers for IBM, for Dell and 
on a contract manufacturing basis, they have far more ability 
to operate and make equipment at a much reduced unit cost than 
any of the people sitting in this room today.
    The Chairman. Does everybody agree with that?
    Mr. Davis. I certainly agree with that.
    Mr. Caruso. Mr. Chairman, I would say that the 
implementation is really directly--the complexity of the 
implementation is directly proportional to the complexity of 
the systems that are being installed. I think our design 
criteria is to have systems that are essentially as simple as 
possible. In other words, we try to put ourselves in a position 
of the poll workers and the voters, and the systems that we 
have designed are designed for an easy transition. In other 
words, even though we are using the latest technology, we are 
not necessarily implementing every aspect of the technology 
because we want it to be voter friendly and poll worker 
friendly.
    And so in effect even though you put in the new system, we 
are envisioning the transition to be easier than perhaps just 
throwing the technology at the electorate, if you will.
    So I would say that if the implementation of systems is as 
it was done in the past where you are putting in new systems 
and you need substantial training, then it would take 
substantial time. If we put in systems that are designed to 
consider an ease of transition, then it would take less time. 
In addition to that, I would envision that if Congress is 
serious about reform, that historically the industry has gone 
to the location to train poll workers and election officials, 
and I would think that if there are standards, that there could 
be central training locations where they come for a couple of 
days and get training on an industry basis. And so therefore, I 
see change in the way it is done as making it easier and time 
efficient in terms of transition.
    The Chairman. I had another question. Mr. Davis, I think it 
was, had stated we should require NASED certification for all 
the equipment and not to grandfather machines. Now, what would 
we do about the machines that were not NASED certified?
    Mr. Davis. I wouldn't put any money out at all for a 
machine that couldn't qualify for NASED standards.
    The Chairman. Even existing ones?
    Mr. Davis. Oh, exactly. I think that has been the problem. 
We are here to solve the problem that exists today, not to 
continue to fund old machines. Many jurisdictions have 
repeatedly gone out and purchased new equipment for 
grandfathered systems only because those were the only units 
that would work with their existing inventory. They were 
operated on proprietary software programs and that has been 
many of the problems that--that is what led to many of these 
problems, old proprietary software programs as opposed to open 
standards and systems that communicate and talk with one 
another, printers that will operate with any system, voting 
machines.
    I think that the word ``appliance'' was used earlier, and 
that is exactly a good point. A voting machine is not a 
complicated piece of equipment. It is, in fact, an appliance 
and it is outrageous that it costs 2- or 3- or 4- or $5,000. It 
has cost that because we were--they were sold in small batches, 
one at a time to jurisdictions, and I think everyone at this 
time will agree that nobody is--all of the people aren't making 
the right technology choices because they aren't all buying the 
same system. That would be our argument. I think that there is 
an open standard, though, that could be established where this 
equipment should be able to work together, should be able to 
operate under a software program that instead of having to come 
back to an individual vendor, a jurisdiction could look to the 
leadership of its State, and if somebody else could fix that 
problem, then that software code ought to be available to them 
so they can fix the problem.
    The Chairman. I just have a couple of more questions. We 
have all the members here and I don't want to take the time. So 
just a brief answer from Mr. O'Connor, if I could. In your 
written testimony you suggest university involvement for 
research and development. How would this work considering the 
time component in the sense that we have to hurry to make the 
2002----
    Mr. O'Connor. Well there are many universities around the 
country that have expressed interest in doing some types of 
certification for elections. George Mason University, at the 
Keller Institute, for instance, is working with several 
different ADA componentry that we have evaluated in putting 
together our ADA compliant touch screen, and the bottleneck 
that I am talking about is having one ITA for hardware and the 
resident software on that hardware and one ITA for the 
software. If all of us have our software into the ITA at the 
same period of time, it is going to take a considerable amount 
of time to get all of us passed. If we have several different 
ITAs, particularly universities, we can eliminate that 
bottleneck.
    The Chairman. Ms. Young, your company operates in Chicago 
now; correct?
    Ms. Young. Our company is based out of Dublin, California.
    The Chairman. But where are you operating out of--not 
operating out of, but where do you have your machines?
    Ms. Young. Our machines presently are in communities in 
Pennsylvania, North Carolina, South Carolina and Michigan.
    The Chairman. Are any of those communities mixed with punch 
cards, in other words, with machines in other precincts?
    Ms. Young. No. In the jurisdictions where we are it is 
exclusively our machines.
    The Chairman. Okay. And the final question I have was 
actually to Dr. Caruso. In your written testimony you advocated 
a national uniform voting system. Opponents--and we have heard 
this before--of a national system contended if we make a 
uniform standard, you could increase fraud. Do you think that 
is true or not?
    Mr. Caruso. No, Mr. Chairman. I think that rather than a 
uniform system, I think what I was saying was uniform 
standards. In other words, the individual standards that need 
to be considered need to be standards that are in my written 
testimony. I can give you just a few of them so you can get a 
sense of exactly what it is that we are talking about here, and 
that is, standards for funding essentially, allow the voter to 
vote selected and correct any errors before a ballot is 
actually cast; detect and prevent overvoting and unintended 
undervoting, so that you have a clear identification for the 
voter that the system needs to be user friendly to actually 
take them through the process, and if they intend to undervote, 
that is a conscious decision that they are undervoting. And I 
have several of those standards.
    Mr. Ney. I will have to read your testimony afterwards 
then. Thank you.
    Mr. Hoyer.
    Mr. Hoyer. Dr. Caruso, let me ask you a question. Do you 
think it would be appropriate for us to set forth those 
standards in legislation, in other words, not designate 
technology to be purchased at the local level, which I don't 
think is either passable or appropriate, but standards clearly 
for doing what you have just pointed out? It seems to me we 
want to make sure that when the voter leaves the ballot booth 
or the precinct, that they are confident that they did what 
they intended to do.
    Mr. Caruso. Yes, Mr. Congressman. I think that a set of 
standards is essential to assure that the electorate in any 
jurisdiction in the country will have the same opportunity to 
vote. If you look at the vote as the foundation of the system, 
then every vote in the country should have equal value. In 
order for it to have equal value, it has to have the same 
standard of consideration. And so that is the reason for 
suggesting a listing of standards. Now, how those standards are 
applied in individual systems is another matter. That allows 
people to use creativity in the use of the technology but the 
result is the same, an accurate fair vote.
    Mr. Hoyer. Let me ask you something. In the legislation I 
have introduced which Mr. Davis referred to and others have 
discussed, we provide as you know for some RDT&E money, $10 
million out of the $150 million. I think this figure is going 
to go up, frankly, as we consider the legislation because I 
think we have low-balled it based upon the testimony I have 
heard. But do you think that will encourage the industry to 
pursue upgrades in new technologies? This is a question for 
everybody.
    Mr. Davis. I would like to ask that, Mr. Hoyer. What we 
have done is we have developed some patented technology that 
has advanced quite a few of these applications. We believe 
those features should be ubiquitous features and we have 
offered and testified 2 years ago here in Washington that we 
would make any of those improvements that we advanced, and we 
would ask the other companies to make them available as well. 
We believe that sets of standards where there is across-the-
board improvement should be standards such as audio ballot 
technology. That should be a ubiquitous feature. A machine that 
is not accessible to a person in a wheelchair should not get a 
dime of funding from anybody in this day and age because there 
are many, many alternatives to that type of equipment; yet it 
is still being purchased. Those are the kinds of standards I 
believe that everyone in the industry would adopt.
    Mr. Hoyer. Anybody else want to comment on that?
    Mr. Welsh.
    Mr. Welsh. I would like to make a couple of comments. The 
impression you might get from some of the comments that have 
been made here is that this is a vast technological wasteland, 
and I would like to correct that misnomer. It is not. All of us 
have been working diligently over the last 5, 6, 7 years, 
advancing the state of the art, advancing the technology. The 
issue has not been the inability for jurisdictions to have 
access to this technology. The issue has been the will, the 
priorities and the funding to make it happen.
    Mr. Hoyer. Let me ask some quick questions and hopefully 
quick answers, and you can expand upon these perhaps for the 
record. Do you have any suggestions on how technology can help 
improve our Armed Services voting system? Have you considered 
that? Obviously we have had some problems. We want to make sure 
our people overseas can vote as well as everybody here at home.
    Mr. Hart. I will just jump in. I believe that that is 
probably the first place where you will actually see an 
Internet application and approved voting, and because of the 
environment in the military, I think that is a great 
opportunity to begin to find out the viability of Internet 
application for voting, and I think that is where some effort 
should be concentrated.
    Mr. Hoyer. Anybody else have a comment on that?
    Mr. Caruso. If I have a concentration of voters from one 
particular jurisdiction or one particular State in a particular 
area overseas, it is entirely possible actually to have 
equipment over there that stores--electronically stores every 
ballot in the State, if you will, so there is an opportunity to 
have those individuals actually vote on a system as well, but I 
do also agree that Internet is the opportunity.
    Mr. Welsh. Our company has had a long standing relationship 
with the DOD and the FVAP Program, the Federal Voting 
Assistance Program, and we continue to work with them in trying 
to find ways to improve that process. In fact, we do have an 
Internet application that will be tested. We also have another 
technology that we all AVA, or anywhere voting technology, 
architecture actually, and that will probably also be tested.

    Mr. Hoyer. Let me ask another question if I can. Voter 
registration, I think one or two of you mentioned that, but Dr. 
Caruso mentioned it. Obviously, that is a huge problem in terms 
of lack of central, accessible, immediate verification of 
whether somebody's registered or not within a State. I know 
must of you are probably not working on that aspect. Am I 
correct on that or not?
    Mr. Welsh. No.
    Mr. Hoyer. Would you comment on that?
    Mr. Welsh. Yes. Our company has about 400 local 
jurisdictions that are on our voter registration systems, and 
we have four States, including your own, that is installing and 
have installed and are operating centralized voter registration 
databases, and they are very effective, and they work quite 
well in terms of minimizing duplications of registrants and 
things like that.
    As concerns fraud, one of the issues that constantly 
confounds us when we look at the data that we get back from the 
installation of these systems is the amount of duplication of 
registrants which is predictable. As people move within a 
jurisdiction, oftentimes they don't report that they have 
moved, and we end up with this duplication process.
    On the other hand, just having a centralized voter 
registration system does not guarantee that you are not going 
to have somebody in a border State and a border application be 
able to move across border as an example and actually 
perpetrate a fraud in terms of voting twice. I think the 
occurrence of that is very, very low however.
    Mr. Hoyer. Let me make a comment. I have been involved in 
elections for a long time, since 1962, I guess, elected in 
1966. In Maryland, I was the sponsor of the registration by 
mail along with several--Senator Byrd in 1973. Our election 
officials had huge concerns, not a partisan concern at all, but 
huge concerns, mostly Democrats, about fraud. Frankly, in the 
last 27, 28 years now, that apparently has not been a problem. 
So I have found the same thing you have, Mr. Welsh, that fraud 
really is not a huge problem.
    Mr. Welsh. If there is any, it is so minimal that it 
probably could not have any real meaningful impact on the 
election.
    Mr. Hoyer. Last question if I can, Mr. Chairman.
    Mr. Ehlers. Would the gentleman yield on that?
    Mr. Hoyer. Certainly.
    Mr. Ehlers. I think the fraud that we have discussed before 
is not fraud in the actual voting process so much as the 
fraudulent registration process which you are not involved in. 
I just wanted to clarify that point.
    Mr. Hoyer. Of course, the mail ballot is the registration 
process, and I think all of us agree that if we had false 
registration, we need to stop that and catch it. None of us 
want, hopefully, people registering who are not eligible to 
vote.
    The other question I wanted to ask, and I will end with 
this, and I have got other questions, but maybe all of you 
could just speak to it briefly. One of the issues is going to 
be provisional balloting. Do all of your technologies provide 
for a provisional ballot, and in fact, a set-aside ballot which 
can be then verified as to eligibility of that voter casting 
it, which ties in, of course, with the uniform or central 
registration? But on of the problems I know in Prince George's 
County, in particular, relatively large mobile jurisdiction is 
the problem, well, I may have moved a precinct but I am really 
registered to vote, well, we don't have you on the books here, 
and allowing provisional balloting. Let me ask all of you to 
comment on that.
    Mr. Young. Yes, sir. Thank you Congressman. Our touch 
screen system already does accommodate provisional balloting, 
yes, it does.
    Mr. Hoyer. So that somebody can vote, you set aside that 
particular vote for verification later?
    Ms. Young. Absolutely. And it is very easily done. Of 
course, Florida just mandated that requirement for provisional 
balloting. So any system is going to have to meet that 
standard.
    Mr. Hoyer. It seems to me Dr. Caruso, that from my 
standpoint, that ought to be one of the standards we include.
    Mr. Caruso. Exactly, and that is one of the standards that 
would be included in our system as well and it is easy to do 
with electronic systems.
    Mr. Hoyer. Mr. Hart.
    Mr. Hart. Our system presently accommodates provisional 
ballots.
    Mr. O'Connor. Global system does as well and has for many 
years.
    Mr. Welsh. All of our systems do and have for many years.
    Mr. Hoyer. Thank you, Mr. Chairman. I have got other 
questions, but I will wait for the next round if there is one. 
If not I will submit some questions for each of you.
    The Chairman. Just mini-second follow up. Is that set aside 
electronically and there are names with it or numbers assigned? 
If you are doing it by paper that is one story.
    Mr. Davis. It is a feature set based on the false standards 
that jurisdictions want to employ for our system. They can 
either use an absentee ballot and cast a provisional vote that 
way or they can assign a number and do it electronically. It is 
their choice.
    The Chairman. Thank you.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I won't have many 
questions for the panel. I apologize, I missed your testimony, 
but I was chairing another committee on a markup.
    I just wanted to continue this issue about fraud briefly, 
and that is, I think there are substantial problems in this 
Nation concerning registration fraud and, in particular, as the 
gentleman from Maryland observed, surrounding the mail-in 
ballot, which is almost simultaneously registration. I think 
that is very dangerous and something that this committee 
certainly should address as it pertains to the Federal 
elections.
    I was appalled when I reviewed this some time ago to find 
the practices of some States are very simple, that you can, for 
example, just pick up a postcard at a post office and fill it 
in and send it in, and you are automatically registered. You 
are never checked to see whether you are a citizen of this 
country, a legal resident of this country and never checked in 
any way.
    The other problem is, of course, that people are not purged 
from the list when they move from one jurisdiction and register 
in another jurisdiction. They can easily vote in both places, 
and it would not be detected under any system we have now. So I 
just wanted to lay that issue out clearly.
    While I am ranting and raving up here I would like to add 
one other thing. I am very concerned about the mail-in ballot 
procedure in some States, particularly Oregon and also the 
rapid increase in absentee balloting. For example, in my State, 
anyone over the age of, I think it is 62, perhaps it is 65, 
automatically is eligible for the absentee ballot whether they 
have a good reason for needing one or not.
    Maybe my reasons are more political than otherwise, but I 
just don't think it is approriate. Quite often I have to vote 
absentee because I am in Washington when the elections are 
being held back home, and I have noticed that when I get the 
ballot, most of the candidates have not yet contacted me. They 
have not presented their case to the public, and I think that 
is an essential part of the campaign process. So I wait until 
the last minute, so I hear everything and I have some facts 
from which I can make some decisions.
    I think, frankly, the best way is to use the machine. You 
be there on Election Day. It means you are exposed to all the 
other information everyone else is and we should optimize the 
number of people that go to the polls.
    Thank you, Mr. Chairman, I am finished ranting and raving.
    The Chairman. It was a very pleasant rant and rave, on a 
scientific level.
    Mr. Ehlers. Right. I am pretty low key.
    The Chairman. Anybody want to answer the rant or the rave 
part?
    Mr. Caruso. I do, Mr. Chairman. Mr. Chairman, there are a 
number of issues that perhaps are primary issues, but maybe not 
necessarily for this particular convening, but some of the 
issues to address, Congressman Ehlers' comment, one way of 
dealing with that is to extend the voting period. In other 
words, there is no particular reason why the vote has to occur 
in one day, in a few hours, with lots of lines, et cetera. 
There are ways of dealing with these issues, and I would 
encourage the committee actually to open up their minds to 
other opportunities actually, to make the whole process a lot 
easier for the electorate.
    In addition to that, one barrier which I guess we don't 
like to discuss, but we probably should discuss, and the 
committee should be conscious of this, is many of our elected 
officials in this country are elected under the existing 
system, and so, therefore, one of the unspoken problems, if you 
will, is resistance to change because of fear, if you will, 
that if it does change, that maybe it is going to change a 
result in some fashion and another. And I think the committee 
at least needs to be conscious of that fear.
    The Chairman. Thank you.
    Mr. Fattah.
    Mr. Hoyer. Can I just make an intervention?
    Dr. Caruso, I agree with you. What I have said when I talk 
to people, I think there is some intellectual reasons to oppose 
campaign finance reform. I am for it, but I think there are 
some intellectual reasons under the first amendment, but I 
don't think that is an intellectually justifiable reason, 
notwithstanding the fact I agree with you, that you are 
correct, that it may be an underlying concern, but the American 
public ought not to stand still for not making a system that 
works best for them, not for us.
    Mr. Caruso. We agree, Congressman.
    Mr. Hoyer. But I think it is important to raise the issue, 
but that simply is not an intellectually defensible reason not 
to put on line the best technology we have to facilitate people 
voting and having their vote accurately counted. You make a 
good point.
    Mr. Fattah. Thank you, Mr. Chairman. Let me apologize for 
being late. I have a hearing going on with FEMA relative to 
their appropriations.
    But I wanted to, as I understand it, President Carter and a 
number of other of our former Presidents who are involved in 
the whole monitoring of international elections have said that 
if circumstances of the elections that take place here in our 
own country would not pass muster in terms of what is required 
in terms of us judging an election as being fairly conducted in 
other places around the globe, and I was wondering whether any 
of your companies are doing business in other places and 
whether you could comment on just whether that is a fair 
characterization, that there are places where the conduct of 
these elections are better handled in terms of fraud prevention 
and counting of votes and the like.
    Mr. Welsh. I can answer that question. From our viewpoint, 
we do a fair amount of business outside the continental United 
States, both in Canada, countries like Venezuela, the 
Philippines, and I would say that their comments are probably 
more based on the voter registration process rather than the 
actual conducting of the election. Many of these countries have 
national ID cards, photo ID cards for voting purposes, and 
whether or not something like that would be both politically 
and culturally acceptable here in the United States is probably 
open to question, but I think that is what they are referring 
to, although in places like Venezuela where they automated the 
entire country using precinct-based optical scanning systems, 
so they ended up with a national uniform standard for 
conducting their elections.
    Mr. Fattah. We are kind of two minds all at the same time, 
which is that we want to make sure that the people who are 
voting are citizens, but we don't want to--the same people who 
are very concerned about that are the same people who are 
adamantly opposed to any type of national ID or national 
standard. So it is difficult sometimes to get your arms around 
some of the philosophical contradictions that take place.
    But I think that, you know, I first of all want to commend 
you for your presentation and I got a chance and my staff did, 
too, some of the products that are available, and I think that 
you are right, that as a general matter, the technological 
capabilities exist for us to do a lot better than we are doing, 
but the political will vis-a-vis the other choices that local 
officials have to make about police protection, fire 
protection, trash collection, a whole range of issues in which 
perhaps their future elections will be judged in a more 
determinate way take precedent over the purchasing of the 
machinery for our democracy in that there is both the 
constitutional requirement under a number of parts of the 
Constitution as related to Federal elections and to the rights 
of Americans to vote, that there is a role for the Federal 
Government to become involved.
    So I want to thank the chairman and the ranking member for 
holding the hearing, and again, I apologize I have to 
disappear, but I have another committee that is meeting and 
going on, and we don't organize the Congress as well as even we 
organize our luncheons yet. So thank you very much.
    The Chairman. Mr. Davis.
    Mr. Davis of Florida. Thank you, Mr. Chairman. I just have 
one question which may be very difficult for you all to answer, 
but it gets back to the politics of this. I think the substance 
is really pretty clear, and you all, like every group of 
witnesses who have come in, have remarkable consistency in your 
testimony, and reasonable people would disagree, but this 
committee can write a good bill and our chairman and Mr. Hoyer 
are committed to that.
    But where we face the biggest challenge is the politics 
that this bill will encounter as it moves on, but the Florida 
legislature in my State overcame that, and I will tell you come 
polling done that said Democrats and Republicans, you better 
fix these machines, we don't care who wins. We know who loses 
if nothing happens, and it is not just us. It is you. So they 
fixed them.
    My question is can you all say categorically today that the 
types of improvements we are discussing here are really not 
going to clearly tell the direction of any political party 
because the ramifications are sufficiently broad it can cross 
all the voting patterns that you might be terribly familiar 
with because of your acute knowledge of elections?
    Mr. Welsh. I would say that neither party or any of the 
parties that are on the ballot are going to be affected 
positively or negatively by what happens in this process. So I 
think it should become a nonpartisan issue.
    Mr. O'Connor. I would agree.
    Mr. Caruso. I would agree.
    Mr. Davis. We developed nonpartisan standards. We look at 
things that are potential influencers that may have nothing to 
do with party, but just in the physical connectivity of the 
unit, what the interface might be or look like, what the screen 
looks like or how it might be displayed. Those things really 
can influence elections. So those are the things that you have 
to look at as you are looking at different types of technology, 
it you think there is some clandestine way to approach the 
influence from maybe one side or the other. So you need to look 
at the clear presentation of ballots but those should be your 
concerns.
    The Chairman. So nobody has a donkey or an elephant 
flashing in the middle of the screen?
    Mr. Davis. Or red light or green light.
    Mr. Welsh. No banner ads.
    The Chairman. It is a great question, and I think what it 
does is each party, whoever votes, is going to be accurately 
reflected in the vote. I think so much hype--I agree with Mr. 
Davis--has been made here, well, if you do this or you do 
that--I am not sure, I think good candidates and voter drives 
and different things people do, all combine together. It is a 
great question.
    Mr. Hoyer. If the gentleman will yield, you know, the point 
I made in one of our earlier hearings was that I found very 
interesting that in Florida, if you counted the votes the way 
George Bush wanted to count them, Gore wins. If you counted the 
way Al Gore wanted, Bush wins. I think that tells us all that 
we really don't know what the ramifications here are and what 
our objective is, and this is what I was saying to Dr. Caruso, 
is to make sure that the will of the voters, whatever that will 
is, is reflected in our democracy accurately, but I think I 
agree with you.
    The Chairman. Mr. Hoyer, I vote for Mr. Gore's way to 
count. I want to thank the panel so much for coming here. It is 
tremendous. Personally speaking, this is the first time I have 
ever not voted on a punch card. I have always voted on a punch 
card. I know it is not a real election, but it is the first 
time I have actually physically seen another machine. We have 
always had punch cards. So for me, I know for Mr. Hoyer and the 
other members that came, and the staff, it was a great learning 
experience and we are going to take--the committee will be 
recess for 10 minutes for the second panel to come up.
    Mr. Hoyer. Before we go I would like to ask a quick 
question because I have got an idea, which I am calling my--I 
haven't discussed it with the chairman and I probably shouldn't 
out it here, but a program I am calling the HAV program, H-A-V, 
and I am going to talk with the chairman. I hope we can maybe 
put it in the bill to do some incentives, help America vote. We 
have got millions of students around America. How long would it 
cost--how long would it take to train a student to be an 
effective participant in precincts in helping run elections?
    Mr. Davis. Mr. Chairman, that is probably one of the 
biggest advantages we feel that we have. When we developed our 
system, it is a completely wireless system. It is not tethered 
to anything. It only weighs about 6 pounds, and it is very easy 
to take those machines into the schools and register kids to 
vote. You can actually construct an election right on site and 
show them of an interest that may be theirs uniquely, and show 
them how to take advantage of it and talk to them about the 
process of democracy.
    Mr. Welsh. You know, Venezuela is an interesting country in 
terms of--it is a Third World country in many ways, but very 
sophisticated in other ways. We had to deal with 7,000 
precincts countrywide with people who didn't really understand 
technology. We employed over 10,000 university students and 
technical trade students who were trained procedurally on how 
to manage a precinct with the technology that was going to be 
employed, and it worked wonderfully.
    The Chairman. I wanted to tell Mr. Hoyer. We have that 
program in our hometown and paying the students. We have it 
now.
    Mr. Hoyer. We ought to adopt it nationally and give 
encouragement because there is just so--somebody mentioned this 
at a previous hearing. I think this would be such a wonderful 
opportunity because we don't have young people voting. Let me 
tell you what I do as a politician. I try to get a precinct 
worker for every hour the precinct is open in Maryland. That is 
13 hours. Not on the theory that I need somebody working the 
precinct, but on the theory that they will bring their mother, 
their father, their son, their daughter to the place to vote if 
we do that. I am convinced if we get young people into these 
polling places working, seeing how it goes, they are going to 
get excited and bring other students in, and we will have all 
sorts of positive results of a program like that.
    The Chairman. We have less than 3 minutes on our vote.
    Mr. Hoyer. Dr. Caruso.
    Mr. Caruso. I think you make an excellent point, and I 
think one of the subtleties of your point is the fact that 
there is great apathy among young voters, and I think part of 
that apathy is the antiquated voting equipment and the fact 
that they come in and there is----
    Mr. Hoyer. These computers mesmerize these young folks.
    Mr. Caruso. Yeah. There is a distrust of the process just 
because of the antiquity of the system.
    Mr. Hoyer. My concept is the HAV program would be a little 
bit like VISTA, you know, helping America vote, will beget 
these young people from colleges, community colleges, or 
technical schools all across America involved in their local 
precincts.
    The Chairman. I want to thank the panel. The committee will 
be in recess for 10 minutes and we will have the second panel 
when we reconvene. Thank you.
    [Recess.]
    The Chairman. The House Administration Committee will come 
back to order, and we have panel two and appreciate your 
indulgence while we voted.

  STATEMENTS OF JAMES MINADEO, PRODUCT MANAGER, AVANTE; SCOTT 
  FAIRBAIRN, REGIONAL SALES MANAGER, ENVOX U.S. LIMITED; MARK 
 STRAMA, VICE PRESIDENT, PUBLIC ELECTIONS, ELECTION.COM; DAVID 
  CHAUM, FOUNDER, SUREVOTE; RALPH MUNRO, FORMER SECRETARY OF 
  STATE, WASHINGTON, BOARD OF DIRECTORS, VOTEHERE; AND DENNIS 
    VADURA, CHIEF EXECUTIVE OFFICER, WEB TOOLS INTERNATIONAL

    The Chairman. James Minadeo, product manager, Avante, 
Princeton Junction, New Jersey; Scott Fairbairn, regional sales 
manager, Envox U.S. Limited, Austin, Texas; Mark Strama, vice 
president, Public Elections, Election.com, Austin, Texas; David 
Chaum--Dr. David Chaum, Founder, SureVote, Sherman Oaks, 
California; Ralph Munro, former Secretary of State, Washington, 
board of directors, VoteHere, Washington, D.C.; Dennis Vadura, 
chief executive officer, Web Tools International, Newport 
Beach, California. Thank you and we will start with Mr. 
Minadeo.

                   STATEMENT OF JAMES MINADEO

    Mr. Minadeo. Thank you, Mr. Chairman, members of the 
committee. My name is James Minadeo. I am the product manager 
for Avante International Technology.
    To answer the first question that we saw from your 
committee was what new technology is out there in voting 
equipment. Well, as a company, we got into the voting equipment 
business November 8th, the day after, so to speak. What we did 
was we looked at a few of the problems that existed and solved 
a few of the problems.
    The first one was the major question of whether your vote 
was counted and was it counted correctly. The voter, until now, 
had no idea whether their vote was counted and counted 
correctly. What we did was we developed a machine that would 
print out a receipt with a randomly generated number that would 
tie only your vote to the receipt. You could then check your 
vote after the election to see if it was counted and counted 
correctly.
    The second feature we incorporated was a no-vote option. 
Basically, the voter has a choice between the candidates that 
are in the contest or the write-in candidate or a no-vote 
option. Therefore, the voter intent is clear, whether they 
wanted to vote on not vote for a particular contest.
    The third feature that was discussed earlier here was 
overseas voting. What we have done using Smart Card technology, 
is able to pull up a ballot from any jurisdiction within this 
country correctly and able an absentee voter to vote. So an 
example would be on an aircraft carrier, military personnel 
could vote from their local jurisdiction, they would get a 
card, it would pull up the correct ballot, they would vote, the 
vote then could be sent at the same time or whatever time 
designated, depending on where they are located within the 
world, so that their vote could be counted at the same time as 
everybody else's vote.
    One of the other questions that you asked was related to 
testing. We are currently in the testing process, and we have 
noticed that one thing that the testing company should really 
focus on is data security and management of the data as opposed 
to reliability testing of the machine itself. We believe any 
company should provide a reliable machine, but they don't focus 
enough on the data security. Also, as I read today in the news, 
the software testing company is even under consideration for 
going bankrupt. So the need for additional resource for testing 
is important.
    As far as the cost and the availability of these systems, 
our technology is based on off-the-shelf, so to speak, 
components, and it represents, if we were to replace every 
voting machine in this country, not just the punch cards, it 
would represent only less than 1 percent of the current 
computer capacity in this country. We believe also that by 
using early voting, you can reduce the overall cost because you 
would need less machines per voter in a jurisdiction.
    Thank you.
    The Chairman. Thank you very much
    Mr. Fairbairn.

                  STATEMENTOF SCOTT FAIRBAIRN

    Mr. Fairbairn. Mr. Chairman, I would like to have my 
testimony made part of my record.
    The Chairman. Without objection.
    Mr. Fairbairn. My name is Scott Fairbairn and I work for 
Envox U.S., Limited. This testimony is based on my knowledge of 
solving problems with the Envox 4.0 development communications 
software and having a sister who has been quadriplegic for 50 
years.
    I am honored for this opportunity to appear before you 
today. The Envox software provides the technology to build a 
secure encrypted ballot utilizing the existing telephone 
infrastructure integrated with bilingual speech recognition 
and/or touch tone commands which simplify the process. Our 
concept is to allow voters with disabilities to vote using 
standard telephone equipment at their assigned polling places. 
A voter that is blind or has physical limitations could vote 
using their voice or the telephone key pad. In addition, by 
using the telephone as a voting device, our disabled veterans 
in VA hospitals, military personnel overseas and our seniors in 
assisted living facilities could easily have real-time voting 
voices.
    My answers to your questions are this: I do not know if we 
can replace all outdated machines by the 2002 or 2004 election. 
The replacement of any technology should be rolled out in 
phases. The primary purpose of the Envox software is to 
simplify and accelerate the development cycle for customized 
software solutions. With this technology we can help reduce 
internal and external operating costs while eliminating 
technology obsolescence.
    Once a ballot is constructed using Envox, it can then be 
stored on a single server or multiple computer servers for 
scaleability and/or affordability. Smaller counties could share 
server platforms to help minimize election costs, improve the 
equipment certification process by allowing counties to use 
COTS, commercial off-the-shelf technology. If the Department of 
Defense has successfully adopted the COTS strategy, why 
couldn't this approach be applied to voting technologies?
    We can reduce voting equipment costs by utilizing proven 
technology that provides scaleability, has already passed the 
proof-of-concepts stage, and is used daily with reliability and 
accuracy for our citizens, including citizens with the most 
severe disabilities. Federal action could help improve 
technology in the voting process by continuing what you are 
doing today, by exploring the technologies that exist in 
today's marketplace that can help improve and streamline the 
voting process for all Americans. Congress can help improve the 
voting process for the disabled community by convincing them 
that their access to the voting system is not an afterthought, 
but an equal right.
    We must first provide the opportunity to vote at every 
voting place, use a voting system that is universally 
accessible, and three, provide a technology that is affordable 
for a county.
    This concludes my testimony, Mr. Chairman, on behalf of 
Envox U.S. Limited. We thank you for this opportunity and as 
well as our committee. Thank you sir.
    The Chairman. Thank you, Mr. Fairbairn.
    Mr. Strama.

                    STATEMENT OF MARK STRAMA

    Mr. Strama. Thank you, and we appreciate this opportunity 
as well.
    Election.com is not currently in the voting machine 
business. We sell open standard software for voter registration 
database management and election administration. Our software 
is compatible with hardware sold by any of the voting equipment 
vendors. So I hope we will be able to offer you an insider's 
perspective on the elections industry that is also independent 
and objective.
    I am going to skip the first question about scaleability 
because I think I am going to answer it in my answer to the 
third question. I am going straight to the certification 
process.
    Because we have never submitted a system for certification, 
I can't comment from personal experience on the process, but we 
would urge full funding of the FEC's Office of Election 
Administration's efforts to complete the already-begun updating 
of the voting systems standards, and we support standards that 
require full accessibility for persons with disabilities.
    With regard to how the costs of voting equipment can be 
reduced, and this will also speak to scaleability, the 
attractive sounding idea out there, and it is one we have 
invested a great deal of research in, is that you can allow 
voting on off-the-shelf touch screens that are networked to 
local servers at the polling place. As desirable as this would 
be in terms of both cost and scaleability, our conversations 
with election officials indicate that this simply is not 
practical for them at this point.
    While it is possible to demonstrate this solution 
successfully in isolated polling places, to implement the 
solution on a wide scale on Election Day would be impossible 
for Election Day poll workers as they are currently deployed. 
Further, a server-based solution creates a single point of 
failure at a polling site meant that if the server goes down, 
the entire polling site is out of business. This is 
unacceptable to every election official we have talked to, and 
as soon as you start building in the redundancy in the servers 
and in the network infrastructure that would address these 
problems, you eliminate the cost savings that originally 
justified the solution in the first place.
    There is, however, an idea that I think makes a lot of 
sense. One of our customers for our voter registration and 
election management software, is a county that tabulates over 
30 percent of its votes during an early voting period. During 
this early voting period voters can vote at any one of 30 
locations around the country. Then on Election Day, the county 
operates about 300 polling locations for a 12-hour period. Some 
of the election commissioners in this county have suggested 
that if they could expand the number of early voting locations 
to about 100, continuing to allow voters at any of them and 
keep those locations open through Election Day, there would be 
no need for the additional 200 voting sites.
    The current model of conducting elections at hundreds of 
thousands of polling locations on one day presents an enormous 
and expensive logistical challenge to elections officials. They 
are required to provide reliable equipment and confident 
staffing for enough polling places to process over 100 million 
votes in 15 hours. And yet out of all these polling places, an 
individual voter can only go to one of them. So this huge 
investment in a temporary infrastructure isn't really doing 
anything to make the voting process more convenient to the 
voter.
    It seems to me that a system with half as many polling 
places open for a longer period of time and where a voter can 
vote at any of them would be more convenient and accessible for 
the voter. It would significantly reduce the amount of 
equipment counties have to purchase enabling them to invest in 
superior technology and it would enable them to provide better 
training and better compensation to a smaller number of 
election workers, addressing one of the most important elements 
of election reform.
    Also, we would urge Congress as you consider funding, that 
you consider the broad scope of election administration. 
Running a successful election is a 365-day-a-year job, not a 
one-day-a-year job. You have to look at the voter registration 
database and all the election administration needs of the 
counties.
    Lastly, we support Internet voting for the military voters 
and we appreciate this opportunity. Thanks.
    The Chairman. Thank you very much.
    Dr. Chaum.

                    STATEMENT OF DAVID CHAUM

    Mr. Chaum. Thank you.
    I believe we stand now at a crossroads with little middle 
ground. We can either seize this chance to move towards best 
practices and best election technology that our great country 
has to offer, or we can dissipate this precious opportunity on 
stopgap expedience, addressing short term that will leave us 
with more of the same for a long time to come, at least until 
someone rises to the challenge of redoing the whole system.
    Most of the technology shown yesterday reminded me of the 
proprietary devices that have long since gone out of existence 
such as $30,000 Wang word processors. None of the major 
technology companies was here yesterday. Why was that? Well, 
one reason is I don't believe the counties have sufficient 
resources to make informed decisions about these complex 
technical products and systems. So called certification is 
little more than a barrier to entry codifying the products of 
the handful of current vendors and not giving any meaningful 
criteria for comparing offerings.
    What technology experts at the GAO have called a new 
paradigm in election technology, described in my written 
testimony, which I hope you can accept to the record, several 
of you have tried yesterday, it yields systems that are far 
superior in terms of voter confidence, privacy and integrity. 
These open systems use no proprietary hardware and are fully 
scalable, allowing very rapid rollout, and they cost less than 
a 10th of the price you have been given by the industry.
    So for a few hundred million dollars, elections across the 
whole country could set a new global standard of excellence. 
Yet, the certification process, it seems, may block these.
    What do I recommend? Well, we need to find--in my written 
testimony, you can see some of the motivation, but I think, 
briefly, let me just flesh out what my proposal was. I think 
that our great technology companies are national laboratories 
and the deep expertise in the numerous parts of the government 
can all be engaged by creating a national competition. I 
believe that they will all rise to the call and challenge, or 
at least the commercial opportunity.
    NIST, having successfully executed similar competitions in 
the past, could be charged, for example, with administering 
such a national competition for election technology. The 
competitors would be consortia. They could comprise industry, 
national laboratories, government agencies and universities. 
Qualifying consortia would each be asked to conduct a mock 
election, according to realistic requirements specifications 
under control conditions with close monitoring by experts. And 
at the end of this, the panel of experts would decide which 
systems are acceptable and criteria for Federal elections could 
be formed around them.
    Election technology is a complex enough problem, and the 
stakes are certainly high enough to justify taking such an 
approach while the alternative could be costly and damaging, 
and the result of such a competition will be that we can move 
ahead extremely expeditiously with confidence that we are doing 
right by the precious fundamentals of democracy that we have 
been entrusted with.
    The Chairman. Thank you very much.

                    STATEMENT OF RALPH MUNRO

    Mr. Munro. Thank you, Mr. Chairman. My name is Ralph Munro, 
And I have served for the last 20 years as Secretary of State 
to the State of Washington, the chief election officer for our 
State, the past President of the National Association of 
Secretaries of State.
    I believe that we are one of the first PC-based voting 
companies, and we use off-the-shelf hardware and equipment. We 
were founded in 1996. We have built relationships with Compaq, 
Cisco and Entrust, and we have conducted trials at private 
elections in 13 States and countries abroad. Last Tuesday, 
hundreds and hundreds of people voted in our system, tried out 
our system in Pennsylvania.
    Your question, would the voting machine industry be able to 
replace outdated machines by 2002, 2004. Our answer is 
different than most. Remember we are offering software and our 
partnership with Compaq allows for immediate scaleability. In 
our case the necessary machines for a PC-based system are 
already on the shelf and in production. Compaq offers us 27,000 
technical people across America to help the election 
administrators into this new system.
    What could be done to improve certification? Remember, 5 
years ago there was little or no national certification 
process. I want to commend the National Association of Election 
Directors. The trouble is that the technology wave is just 
beginning. Software is the future, not hardware. Everything 
offered from the panels today in many respects is obsolete or 
will be obsolete within 3 to 5 years. Congress could help with 
money for NASED's for independent testing to shorten the 
process, and I would urge you to keep the bar high.
    Question, how do we reduce the cost of equipment? Simple, 
approve systems that use off-the-shelf hardware, reuse PCs for 
other purposes in local jurisdictions. Scale is important and 
so is competition. Offer systems where counties can buy PCs in 
bulk. Give counties the option to lease equipment and upgrade. 
Bring voting and bids to a cost per voter model. Our system 
provides for this.
    What can the Federal Government do to help? Keep the 
attention focused on this issue, and you have done an excellent 
job from the Chairmanship and the minority leadership. Solve 
the military voting problem and solve it now. Today we have the 
technology and the capability to conduct private, secure, fully 
auditable on-line elections for the military serving overseas. 
Americans need a better system. I am personally disgusted to 
see how many military votes are tossed out.
    Give the disabled the opportunity to vote with everyone 
else and like everyone else. Listen to folks like Jim Dixon and 
others who speak so well for disabled community. Keep the 
voting standards high. Remember the three A's of election 
administration: authentication, absolutely secret ballot, and 
the audit process.
    The solution to America's problem is not just money for 
punch cards to be removed and optical scans to replace them. 
Both of those systems are obsolete.
    An assessment of Internet voting. I can't get through the 
grocery store without people asking me about when do we go vote 
on the Internet. Remember that this process will be evolution, 
not revolution. Start with the military. Mr. Hoyer hit the nail 
right in the head. Work with the disabled, and after that, the 
PC voting systems are best prepared for evolution into Internet 
technology.
    So I want to thank you for the opportunity to appear.
    The Chairman. Thank you very much.
    Mr. Vadura.

                  STATEMENTS OF DENNIS VADURA

    Mr. Vadura. Mr. Chairman I would like my testimony to be 
made part of the record.
    The Chairman. Without objection.
    Mr. Vadura. Mr. Chairman and members of the committee, 
thank you for letting us--I appreciate the opportunity to 
appear here today and offer testimony on the very important 
issue of election reform as it relates to voting and machine 
technology.
    With the November 7th, 2000 general election, the country 
received a stark wake-up call regarding the status of its 
voting technology. In considering potential remedies to what 
quickly became a very visible problem, we at Web Tools 
International discussed a number of alternative solutions, 
including Internet-based voting. After all, we are an Internet 
and information technology company, and Internet-based voting 
would have been a clear fit for our core business.
    However, early on we rejected Internet based voting as a 
viable solution in the foreseeable future for a number of 
reasons, not the least of which were the need for system 
security and the need to maintain the integrity of the vote. We 
therefore set out to retain the voter trust by designing an 
accurate and reliable vote counting system that attempted to 
embrace the best of both the new technology and the old tried-
and-true paper based systems. A key design goal of our system 
was the belief that we should retain, as much as practical, the 
context of the voter's current polling place experience while 
enhancing it to take advantage of what a touch screen system 
could provide, namely, a correct and auditable account.
    The result is AccuPoll, WTI's polling place electronic 
voting system, that guides the voter through the voting process 
using a touch sensitive screen, allows the voter to review 
their ballot for correctness, and provides the voter with a 
paper ballot that contains their selections and which they 
deposit in a ballot box in a manner similar to what they do 
today. AccuPoll is designed to eliminate overvotes--they are 
simply not allowed--and significantly reduce undervotes from 
voter error. Together these serve to significantly reduce, if 
not eliminate entirely, the possibility of inadvertent voter 
error.
    We maintain in AccuPoll an electronic record of all ballots 
cast. The paper ballots produced by AccuPoll are both human and 
machine readable. Thus the official paper ballots can be 
audited against the electronic ballots stored by the system and 
the electronic ballots can themselves be audited against the 
paper ballots deposited by voters into ballot boxes. The cross-
audit of the paper ballot count against the electronic ballot 
count serves to prevent the possibility of ballot counting 
error, electronic tampering and paper ballot fraud. In the 
event of a contest to the election results, the electronic 
tally as well as the paper ballots can be quickly and 
consistently audited to verify the election results.
    In answering some of the questions that were posed to us, I 
would like to say that can we replace the voting technology by 
2002 or 2004, I think the answer there is depending on whether 
we can use off-the-shelf technology. If the answer is yes, then 
I think by 2004 we can certainly have the capacity in the PC 
industry to move to an electronic-based system.
    And in terms of what the government can do to improve the 
certification process, I concur with my colleague here that I 
think the software certification issue is going to be the most 
important issue going forward. If we are going to eliminate 
hardware as a hardware issue for certification by using off-
the-shelf components, then quickly moving to certify software 
is really important, both for the new technology companies as 
well as the old technology companies. We need to make the 
changes quickly.
    So I thank you for the opportunity to testify here today.
    The Chairman. I want to thank the entire panel. I will be 
very quick on my questions. I want to give Mr. Hoyer some time, 
and if there is time left, I have got a ton more. How many of 
you have been voter tested out in the field on a pilot? Okay, 
you have and you have. Been pilot or you are actually voter 
tested?
    Mr. Strama. We have 170 counties using our voter 
registration software. We also do private sector elections on 
the Internet including for the Sierra Club, a lot of 
nonprofits, trade associations and labor unions using remote 
Internet voting which we think is sort of the proving ground 
for the ability to eventually begin using it for limited 
populations in public elections.
    The Chairman. I think--on your machines, I think, Mr. 
Minadeo, I think I had a receipt on yours, right?
    Mr. Minadeo. Yes.
    The Chairman. Let me ask anybody here, what about the 
debate--and I have thought different directions on receipts--
the debate that leads to the potential, if you get the receipt, 
to vote selling or some pressure there. It is always so private 
how you voted.
    Mr. Minadeo. Well, the one option is that the receipt only 
says that you voted or did not vote for a particular office. So 
there is no way to buy the vote per se. The model would be that 
the, say the clerk's office would have a written record of the 
votes and you would have to sign in saying you are checking 
your receipt, you only get an opportunity to check one receipt 
per person. So you can't come in with 1,000 receipts saying I 
want to check them all for my whole family here or something 
like that.
    The Chairman. Question I had for Mr. Fairbairn was how 
secure is phone voting?
    Mr. Fairbairn. Phone voting is very secure from what we 
have tested so far in regards to it has encryption technologies 
already built into it. We utilize the Microsoft encryption API, 
which is an industry standard, and in that standard we can also 
run different type of algorithms as well as some types of 
digital signatry.
    The Chairman. Thank you. And the question I had for Mr. 
Strama, you look taller on MTV than you do here today, I wanted 
to tell you, on that Rock the Vote. You have a very interesting 
background. I know you don't have voting machines. I want to 
ask you a couple of questions. You had led the charge to have 
the motor voter in Texas and were ahead of the Federal 
Government in having it. Local boards of elections, either 
political party, you know, come up to me a lot and at the 
grocery store and they ask, you know, here is their dilemma. In 
fact, Ms. Carolyn Jackson, I think her name was Carolyn, 
testified here from Tennessee and she said, you know, people 
come up to them because the DMV of that State doesn't have the 
capability, can't, not intentional, transmit, so all of the 
sudden she has to tell a voter you are not eligible, and then 
there is lists that I get boards of elections, again both 
political parties, that will say we have got to be able to get 
some of these people off the lists that aren't here.
    Now how is your system geared to help through some of the 
glitches that happened in motor voter?
    Mr. Strama. It is an excellent question because one of the 
issues that was not paid as much attention to in the wake of 
the past election were all the problems that were as 
numerically significant as the tabulation problems with people 
trying to vote and not being on the list, and people who voted 
but maybe shouldn't have and people who inadvertently, in some 
cases, voted twice.
    The answer to your question, is our system was built in 
Arkansas. What happened was the counties--after NVRA was 
passed, the counties in Arkansas couldn't afford to comply with 
the requirements of NVRA. It required a great deal more 
computer technology and automation and reporting capabilities 
than they had in place at the time. So the poorer counties just 
couldn't implement it. So they went up to the Secretary of 
State, Secretary Sharon Priest and said, you have got to help 
us solve this problem because we can't comply with the Federal 
law. Secretary Priest went to the legislature. The legislature 
appropriated funds to build a uniform statewide system so that 
the poor counties have the same quality technology as the 
wealthier counties. Once you have a uniform system statewide, 
it really improves the ability to transfer data, not just among 
counties, to do duplicate checking among counties as was 
mentioned before, but also to transfer data from the State 
agencies that have now become voter registration agencies under 
NVRA back to the counties.
    So for example, when you register at a DMV in Arkansas, if 
you get your address changed on your driver's license or you 
get a new driver's license and they ask you if you want to 
register to vote, you then sign a pad. If you do want to 
register to vote, you then sign a pad that records the digital 
image of your signature. The data is transmitted electronically 
to the country.
    The Chairman. Because right now when they go into register 
in a lot of States, they sign and it never gets transmitted, 
and then the local board of election official has to be the bad 
person and say you can't vote.
    Mr. Strama. That is exactly right. By networking the county 
to a central statewide system for voter registration database 
management, and then networking that system to the State 
agencies that are now registering voters, you lose that risk of 
data lost, and that is where the problems were.
    The Chairman. Is your system foolproof on not having the 
same person registered in two States? Can it catch that?
    Mr. Strama. No unfortunately. It does eliminate the problem 
of duplicate registrations among countries when you network 
them State wide, but the only way to eliminate the problems of 
duplicate registrations among States would be to create a 
central national clearinghouse, and that is--I have talked to 
some of your staff about that before and that has got some 
political obstacles ahead of it.
    The Chairman. Because of the time, I think Mr. Hoyer's 
point about the youth and knowing your involvement and 
background with youth, I think our community has a program like 
this. I think that is a good way to be very excited about it, 
and Rock the Vote, I thought, was a very interesting 
undertaking.
    Mr. Strama. Young people make excellent poll workers.
    The Chairman. Last two quick questions. Military voting by 
2002, I think----
    Mr. Munro. I could comment on that. I think there are 
several people here at the table.
    The Chairman. Do you think you could do that?
    Mr. Munro. Some of us at the table believe the technology 
is here. The question that I have personally is the interest at 
the high levels of the Pentagon enough that they will go ahead 
and move ahead to implement a system. The current systems that 
they talk about are really, really obsolete, and there are 
opportunities ahead. Technology is flowing down much faster 
than anyone realizes, and I think that this picture could 
change dramatically, and we believe we have a system.
    I heard another gentleman say that they believe they have a 
system. Probably the place that Congress could help us most 
would be to convince the higher levels of the Pentagon that 
they need to look at this problem.
    The Chairman. I think you register--you select people as 
registrars. If you have 400 people together or 1,000 people 
together, it is nothing unusual. You have X amount of 
registrars that certify that the people are who they are, and 
then they would have to, of course, use encryption because of 
where it is coming from.
    Mr. Munro. Encryption, digital signature, or some sort of a 
Smart Card to pull up their ballot, and you could make this 
happen.
    The Chairman. My last question I had, and then I will yield 
to Mr. Hoyer, I think Mr. Vadura raised it and Dr. Chaum, about 
Internet voting. Now, why can't you use--because at first, when 
you say Internet voting, all kinds of things come to my mind 
about potential fraud and people are sitting there, but nothing 
could be more sought after than people's money, and you know I 
have PIN numbers, everybody has, and I don't recall huge 
amounts of fraud in acquiring people's PIN numbers for their 
ATM cards all over unless you give it out. Am I correct in 
thinking you could think along a process of Internet voting 
based on PIN numbers or is that hackable?
    Mr. Vadura. The issue with Internet voting is not a 
technology issue. I think you are absolutely right. We have all 
the systems in place to make sure that the vote itself, the 
content of the vote itself is securely transmitted between the 
end user and the centralized storage location, server if you 
will. The issue goes back to it is a social issue and back to 
vote buying. How do you know that someone is not sitting with 
that person in their office asking them to vote Democrat in 
return for a chicken as I have often heard said, and I think 
that is the primary issue. It is a political and social issue. 
It is not a technology issue. It is a political and social 
issue. It is a technology issue. Now for the military, I think 
it is completely appropriate.
    The Chairman. What about absentee ballots? I want to relate 
them to paper for a minute, and believe me, I try to keep an 
open mind. My first instinct is to say fraud, fraud, fraud, but 
all of the sudden I think, well, what about absentee ballot. 
Somebody could be sitting there saying to me how are you going 
to fill that out because it is done in the privacy of my home.
    Mr. Munro. 54 percent of the people in Washington State now 
vote by mail. 100 percent of the people in Oregon vote by mail. 
I was an elected official up to a few months ago. A lot of my 
fellow elected officials didn't want to hear it, but Internet 
voting is coming and it is coming quite fast.
    The Chairman. I have got to tell you I was 100 percent 
skeptical of it. I am not saying where I have evolved to 
percentage-wise on it, but I start to compare it because it is 
an electronic device. I am skeptical because I wasn't raised 
with electronic devices. But yet I think okay well what about 
absentee ballots. Somebody could be sitting there--it is a 
piece of paper but they could be sitting there saying hey.
    Mr. Chaum. Mr. Chairman, I would like to draw the 
committee's attention to the fact that the Secretary of State 
of California study and the recently-published NSF study, both 
concluded that Internet voting wasn't viable because of the 
problem that the PCs primarily could have viruses or whatever 
in them that could cause the vote of the person to be changed, 
and you might never be able to really figure out what happened 
and so forth. This is a serious issue and that is why they 
recommended that it not be done.
    However, as you know from yesterday, our technology allows 
PIN codes, as you mentioned, to be given to people on paper 
instruments from government, and those PIN codes can then be 
used to vote, one PIN code per candidate. With a system like 
that, the whole Internet voting problem is solved in the sense 
that it doesn't matter what any of the PCs or infrastructure 
does because those PIN codes can be transferred over the 
network just like a launch code for a missile. There is no way 
for anyone in the network to change it to another valid code.
    So in particular, also related to your question about 
military voting, and we have heard about Smart Card solutions, 
people want to put equipment in military bases, and your own 
solution sounded very interesting, but it would be possible to 
provide military with paper ballots for at least for Federal 
elections, that then they could securely vote over phone or 
Internet or what have you, because the medium that they use to 
transfer a PIN code per candidate doesn't matter.
    I think, and particularly with military elections, the 
privacy of the vote is a real issue. In the past, the military 
hasn't seen fit in many cases to really address that.
    The Chairman. I think more of the military too is getting 
the vote there on time.
    Mr. Chaum. Certainly.
    The Chairman. Mr. Hoyer.
    Mr. Hoyer. I will be brief because our time is running out. 
Is everybody in the panel agreed that on the priority of old 
technology retirement? Said another way, which of the 
technologies--I think I know the answer--do you think we ought 
to get rid of first or is there?
    Mr. Strama. Lever machines. Lever machines have up to a 10 
percent error rate, as Secretary of State Kathy Cox has 
identified in Georgia, and next would be punch cards, I think.
    Mr. Chaum. If you look at the recent MIT CalTech studies on 
this, it is surprising, but actually the DREs are coming up 
with a pretty high error rate compared to a number of the more 
favored based systems, and I noticed some of the congressmen 
voting in the Expo yesterday having problem working the touch 
screen machines. This is not really a panacea, I am afraid. So, 
politically, obviously, punch card is something that has to be 
replaced.
    Mr. Munro. I would reply a little bit differently. I would 
say, Mr. Hoyer, that whenever Congress approves, if there is 
money or if there is stipulation, keep the bar very high. Keep 
the bar high.
    Mr. Hoyer. This is the standards issue?
    Mr. Muno. Keep the standards high. Just because somebody 
has a black box or a screen or something doesn't mean they have 
a secure system. Make it as tough as possible because only the 
best will meet that standard and that is what America deserves.
    Mr. Minadeo. I would say also the lever technology would be 
the first priority. Being in a country where they do use those 
machines, the qualified personnel, even just to fix then, are 
become being less and less, and the parts and the availability 
to fix then, at least with any kind of paper ballot, it is not 
a technology that hasn't gone away, but as far as New York 
having problems with machines and New Jersey, that is probably 
the biggest issue is just the repair and upkeep of such a 
machine.
    Mr. Fairbairn. My personal knowledge of exactly what 
technology is out there is fairly limited, but in regards to 
the disabled community, I would feel that it would probably be 
better off to a evaluate the technology that is out there than 
try to integrate newer solutions into that technology to allow 
a more universal accessibility to the voter, and in doing do, 
you could utilize that--we talked about speech recognition 
engines or something like that to help provide a broader scope 
of people with disabilities going to the poll and how you would 
do that.
    Mr. Hoyer. On disability access, does everybody agree that 
that needs to be one of the important standards?
    Mr. Vadura. Absolutely.
    Mr. Hoyer. In the legislature I have introduced, as you 
know, one of the things you would have to do is certify 
compliance with disability access.
    Mr. Chaum. I personally think that one could broaden the 
definition of disability a little bit because there are very 
elderly people and so on that aren't officially disabled. I 
think when you see the demographics of poor turnout and 
participation and accuracy in voting differs by age group and 
so forth, so when you change the type of technology that is 
used. So I think that, you know, this voting system question is 
a very complex one, and what we need is really to test at the 
user interface level as you heard, see what kind of systems 
really in practice people do work with accurately and like and 
so on, and all different kinds of age levels and ability 
levels, and that is something that is not done by trials. That 
is something that has to be done more in a laboratory type of 
environment, really deliberately testing. That is the kind of 
thing that is needed to get really a fair way for people to 
input their votes.
    Mr. Vadura. The other comment I would like to make is on 
disability access. I think it is also feasible to think about 
it in terms of does every voting system have to have the 
disability access or should the legislation say that the 
polling place must have disability access, and I think those 
two aren't necessarily one in the same.
    Mr. Hoyer. Combination standard which is the ADA standard, 
I think, an access point per precinct compliant.
    Mr. Vadura. That is right and it doesn't have to come from 
the same vendor. That is what I am trying to say.
    Mr. Hoyer. I understand what you are saying. I have heard 
on Internet voting, I was surprised that Bob is moving the 
other way--the Chairman is--that so many of the experts said 
that Internet voting was not something that they think we ought 
to move to very quickly. Again, I would stress that what Mr. 
Ney and I are going to be doing is not choosing technologies 
nor trying to impose technologies on States and subdivisions, 
but in that context, do you believe that each State ought to 
have uniform technology within a State, or do you think it 
continues to be viable to have multiple technologies within 
that State?
    Mr. Vadura. My personal belief is that it is beneficial to 
have uniform technology statewide if possible. It is a training 
issue. It helps in training. It is a cost reduction issue. It 
is a rollout issue. It is a maintenance issue. All of those, if 
you have uniform technology, you can rely on resources--fewer 
resources to maintain the equipment statewide. But that is a 
harder thing to get to and will all recognize that, but I think 
it will be better for the State electorate and the industry if 
we could do that.
    Mr. Munro. I would just respond and urge you, don't do 
anything to limit technology because the technology is coming 
very, very fast.
    Mr. Hoyer. And in response to that, the legislation that I 
am introducing, and I would think that Mr. Ney and I will be 
introducing will not do that. I agree with you 100 percent. In 
fact, I think we will want to try to encourage--as I said 
earlier, you may have heard in term of dollars available for 
RDT&E, for additional research into whether it is done through 
a government agency or it is done by private sector or 
partnership between the two. Clearly, I don't think any of us 
think we are--we now have all the technology that needs to be 
available.
    Mr. Chaum. I would like to point out that I think that that 
technology research money would be far better spent a priori 
trying to get a kind of generally-agreed technology solutions 
for voting that are vetted by the real experts in the Federal 
government that then could roll out in massive way as opposed 
to, and then you could get big companies behind. If you just 
start producing the market opportunity by funding the 
deployment of all kinds of existing stuff, then big companies 
aren't going to want to get into it, and if you start giving 
away research money it is really not going to go anywhere.
    Whereas if you do the research first, then the market 
opportunity to capture the whole market is huge. Big players 
can come in and you can get a real national level of technology 
options available, that then can be rolled out in a very 
expeditious way. And so I don't think the question is really 
which machine should we replace further, but rather how can we 
quickly find out what are the best voting technology complete 
suggestions available, and then get Federal guidelines to give 
criteria that would incorporate those so that we can just roll 
out and uniformize the voting in this country.
    Mr. Hoyer. Toward that end, one of the things that I tried 
to do in the legislation I have introduced is centralize the 
administration, what is now the Office of Election 
Administration, which is in FEC, and move that into an 
independent commission, four people on it, bipartisan, with 
dollars available to them, for the purposes of approaching what 
you are suggesting in term of getting and almost, as everybody 
has testified to in terms of national recommended objectives, 
standards, call them what you will, keeping the bar high, what 
works, et cetera.
    Mr. Chairman, I have got a lot of other questions but the 
hour is late. Folks have been waiting a long time. I think this 
has been very useful and we are going to have a lot of work. 
The chairman and I are going to be working very hard over the 
next number of days to try to come up with legislation which 
will give broad parameters and encouragement and assistance to 
the States and local subdivisions to accomplish many of the 
objectives, but it is clear that we need to provide a system 
which will--and one of the things I didn't ask this panel, I 
asked the last panel, was in terms of provisional balloting.
    Registration obviously is a big problem, centralization of 
registration. Provisional balloting for those that say they are 
properly registered, but for whatever reasons, technically we 
can't grab that information at the time, clearly very 
important, and huge issues is going to be, I know what kind of 
identification and fraud prevention procedures are involved, 
which you may or may not have some thoughts on. But we are 
going to be trying to get legislation to the floor hopefully in 
the near term, so that notwithstanding the thought, that we now 
have revolutionary, but evolutionary change, I think that is a 
good suggestion. I think that serves us by not mandating the 
technology, but allowing the States and not only allowing the 
States, but the States have that right to provide for different 
kinds of uses of technology, and see what works better than 
others, or the greater experiences we have, the better results 
I think ultimately we will get.
    But whether we are fully implemented in 2002, I think we 
need to make a very substantial step towards obviously doing 
away with technology that is no longer serviceable and parts 
aren't available on lever machines and which have a high error 
rate, which people don't really get because they think once you 
pull down that lever the tumbler will work absolutely 
correctly, the vote will count, et cetera, and it doesn't and 
we know it doesn't.
    And in addition we know that the punch card system 
obviously has a high degree of error and the higher degree or 
the more centralized accounting system, the higher degree of 
error. If you have a precinct-based system, you have less error 
because voters can come back.
    I appreciate your taking the time. Look forward to working 
with you Mr. Chairman. Thank you again for your leadership on 
this issue.
    The Chairman. I too want to thank the witness, and again, I 
want to make it clear, I am very skeptical of the Internet, but 
I guess my point, too, is that, just to beat the Internet dead 
horse again, but I think there is a balance here, and you want 
to write some standards, but you want to have an open mind and 
flexibility to it. So I appreciate working with Mr. Hoyer.
    I want to again thank you for coming to the Capitol. It has 
been, believe me, a tremendous help and I ask unanimous consent 
that witnesses be allowed to submit their statements for the 
record, and for those statements to be entered in the 
appropriate place in the record. Without objection, material 
will be so entered.
    I ask unanimous consent the staff be authorized to make 
technical and conforming changes on all matters considered by 
the committee at today's hearing. Without objection so ordered. 
Having completed our business for today and for this hearing--
--
    Mr. Hoyer. Can I make just one comment before we end?
    The Chairman. Sure.
    Mr. Hoyer. This has been, I think, a very, very important 
hearing because the technical aspects of this are obviously 
very important. We need to I think reiterate that the major 
problem that we want to make sure is that whatever the 
technology that we make sure that voters are facilitated in 
coming to the polls, casting their vote, having it accurately 
counted, which is the technology component, but this is a 
broader issue than just technology, but technology is going to 
be, I think, a very, very important part of the solution. Thank 
you, Mr. Chairman.
    The Chairman. Thank you. The committee is adjourned.
    [Whereupon, at 1:30 p.m., the committee was adjourned.]

                                <greek-d>

</pre></body></html>
